IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-40558
Summary Calendar

FILED
June 19, 2020
Lyle W. Cayce
Clerk

DANIEL THOMASON SMITH,
Petitioner - Appellant
v.
WARDEN, FCI BEAUMONT,
Respondent - Appellee

Appeal from the United States District Court
for the Eastern District of Texas
USDC No. 1:18-CV-581

Before BARKSDALE, ELROD, and DUNCAN, Circuit Judges.
PER CURIAM:*
Proceeding pro se and in forma pauperis, Daniel Thomason Smith,
federal prisoner # 29163-380, contests the dismissal of his 28 U.S.C. § 2241
petition challenging his convictions and sentences for: conspiracy to commit
health-care fraud, in violation of 18 U.S.C. §§ 1347 and 1349; aiding and
abetting health-care fraud, in violation of 18 U.S.C. §§ 2 and 1347; aiding and
abetting aggravated identity theft, in violation of 18 U.S.C. §§ 2 and 1028; and

* Pursuant to 5th Cir. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5th Cir.
R. 47.5.4.

No. 19-40558
y

aiding and abetting making false statements related to a health-care matter,
in violation of 18 U.S.C. §§ 2 and 1035. The district court dismissed the § 2241
petition because Smith’s claims, based on Rosemond v. United States, 572 U.S.
65, 67 (2014) (holding, in prosecution for aiding and abetting violation of 18
U.S.C. § 924(c), Government must prove defendant had “advance knowledge
"N

that a confederate would use or carry a gun during the crime’s commission”),
did not satisfy 28 U.S.C. § 2255(e)’s savings clause, discussed infra. (Smith
also contends his conditions of confinement violate the Eighth Amendment;
however, this contention “will not be considered” because it is made “for the
first time on appeal”. Wilson v. Roy, 643 F.3d 433, 435 n.l (5th Cir. 2011)
(citation omitted).)
A The dismissal of Smith’s § 2241 petition is reviewed de novo. Pack v.
Yusuff, 218 F.3d 448, 451 (5th Cir. 2000) (citation omitted). Section “2241 is
typically used to challenge the manner in which a sentence is executed”. ReyesRequena v. United States, 243 F.3d 893, 900-01 (5th Cir. 2001) (citation
?' •

omitted). Section “2255, on the other hand, is the primary means under which
a federal prisoner may collaterally attack the legality of his conviction or
sentence”. Id. at 901 (citation omitted).

Under § 2255(e)’s savings clause,

however, petitioner may employ § 2241 to challenge a conviction and sentence
if it “appears that the remedy [under § 2255] is inadequate or ineffective to test
the legality of [petitioner’s] detention'’.

28 U.S.C. § 2255(e).

Petitioner

satisfies the savings clause by showing his claim: “is based on a retroactively
applicable Supreme Court decision which establishes that the petitioner may
have been convicted of a nonexistent offense”; and “was foreclosed by circuit
law at the time when the claim should have been raised in the petitioner’s trial,
appeal, or first § 2255 motion”. Id. at 904.

2
i

No. 19-40558
Smith fails both prongs. Because Rosemond was decided in 2014 and
Smith’s trial was in 2016, he “has not demonstrated that Rosemond applies
retroactively to [his] cased”. United States v. Nix, 694 F. App’x 287, 288 (5th
Cir. 2017) (citations omitted). Moreover, because Rosemond was decided in
2014, his contentions were not foreclosed or unavailable at the time of his 2016
trial, and he could have also raised them either on appeal or in a § 2255 motion.
See Reyes-Requena, 243 F.3d at 904. Accordingly, he fails to show the court
erred by dismissing his § 2241 petition.
AFFIRMED.

3

Case l:18-cv-00581-MAC-ZJH Document 19 Filed 06/10/19 Page 1 of 2 PagelD #: 138

EASTERN DISTRICT OF TEXAS

UNITED STATES DISTRICT COURT
DANIEL THOMASON SMITH,
Petitioner,

§
§
§
§

§

versus
WARDEN, FCI BEAUMONT,
Respondent.

CIVIL ACTION NO. 1:18-CV-581

§
§
§
§

MEMORANDUM ORDER OVERRULING PETITIONER’S OBJECTIONS AND
ADOPTING THE MAGISTRATE JUDGE’S REPORT AND RECOMMENDATION
Petitioner Daniel Thomason Smith, an inmate confined at the Federal Correctional
Complex in Beaumont, Texas, proceeding pro se, brought this petition for writ of habeas corpus
pursuant to 28 U.S..C. § 2241.
The court referred this matter to the Honorable Zack Hawthorn, United States Magistrate
Judge, at Beaumont, Texas, for consideration pursuant to applicable laws and orders of this court.
The magistrate judge recommends that the above-styled petition should be dismissed.
The court has received and considered the Report and Recommendation of United States
Magistrate Judge, along with the record, pleadings and all available evidence. Petitioner filed
objections to the magistrate judge’s Report and Recommendation. This requires a de novo review
of the objections in relation to the pleadings and the applicable law. See Fed. R. Crv. P. 72(b).
After careful consideration, the court concludes petitioner’s objections should be overruled.
Petitioner’s petition does not meet the criteria required to support a claim under the savings clause
of 28 U.S.C. § 2255. See Padilla v. United States, 416 F.3d 424 (5th Cir. 2005); Reyes-Requena
v. United States, 243 F.3d. 893 (5th Cir. 2001). Accordingly, the petition should be dismissed.

Case l:18-cv-00581-MAC-ZJH Document 19 Filed 06/10/19 Page 2 of 2 PagelD #: 139
r

ORDER
Accordingly, petitioner’s objections are OVERRULED.

The findings of fact and

conclusions of law of the magistrate judge are correct, and the report of the magistrate judge is
ADOPTED. A final judgment will be entered in this case in accordance with the magistrate
judge’s recommendation.
SIGNED at Beaumont, Texas, this 10th day of June, 2019.

MARCIA A. CRONE
UNITED STATES DISTRICT JUDGE

2

Case l:18-cv-00581-MAC-ZJH Document 20 Filed 06/10/19 Page 1 of 1 PagelD #: 140

EASTERN DISTRICT OF TEXAS

UNITED STATES DISTRICT COURT
DANIEL THOMASON SMITH,
Petitioner,

§
§
§
§

§

versus
WARDEN, FCI BEAUMONT,
Respondent.

§
§
§
§

CIVIL ACTION NO. i:18-CV-581

.

FINAL JUDGMENT
This action came on before the Court, Honorable Marcia A. Crone, District Judge,
V '

presiding, and the issues having been duly considered and a decision having been duly rendered,
it is
ORDERED and ADJUDGED that the above-styled petition for writ of habeas corpus is
DISMISSED.
All motions by either party not previously ruled on are DENIED.
SIGNED at Beaumont, Texas, this 10th day of June, 2019.

^ OifiwL.
MARCIA A. CRONE
UNITED STATES DISTRICT JUDGE

v

ft

cLi x H
Daniel Thomason Smith's sentence, and its manner in which it
is being executed, it is 'out of bounds', plainly unreasonable,'and
merits revocation pursuant to the double standard exemplified below.
No Onq cares about 3.5 Million Dollars, which
No One has proven Smith 'stole' from Medicare
because you canNOT prove it, and I DISproven
the government's Theoretical Presumption(s),
Preponderance of Evidence, Circumstantial
Evidence, and can 'hold' cross examination
with ANY of the False Bearing Witnesses for
which NO ONE ever even said a derogatory
By Dave Sebastian
thing about me anyway, and even IF I did it,
The former chief executive
whatever i^t is, take a gander at this Newly
and president of Bumble Bee
Foods LLC, was sentenced to
pronounced verdict, and tell me why he only
more than three years in
prison for his lead role in a
'receives' 36 months?? Hmm.?? Totally Out of
conspiracy to fix prices of
canned tuna, the Justice De- \
Line for Smith. REDUCE THE SENTENCE. And that's
-partment said.
A jury, after a four-week |
Mr. Lischewski on Tuesday
"attacking the sentence for
trial in late 2019, convicted
said he denies claims Of price
the former executive, Christo­
fixing and will file an appeal.
the manner in which it is
pher Lischewski, for partici­

Convicted
Tuna-Fish
Executive
Sentenced

pating in an antitrust scheme
to, fix canned-tuna prices ini
the U.S. from around Novem­
ber 2010 to December 2013.
He had been charged in May
2018 for the case.
Mr. Lischewski was also or-;
dered to pay a $100,000 fine
for the scheme, which affected
Bumble Bee's
Christopher
Lischewski
was given
prison time for
a tuna price­
fixing scheme.
more than $600 million in
,canned-tuna sales, prosecutors
said.
“The sentence imposed toLday will serve as a significant
'deterrent in the C-suite and
:fthe boardroom,” Makan Delra- !
S ' him, assistant attorney general i
Jfbr the department’s antitrust /
•^division, said Tuesday. “ExecSutives who cheat American:
Consumers out of the benefits
' of competition will be brought
to justice, particularly when
their antitrust crimes affect
the most basic necessity, food.”

“I was found guilty of a crime
I did not commit and a crime,
where there is no victim,” he
said in an opinion piece in Un­
dercurrent News, a trade pub­
lication that covers the sea
food industry.
Bumble Bee pleaded guilty
for its role in a conspiracy to
fix prices and was sentenced
to pay a $25 million fine, the
Justice Department said.
;StarKist Co., another cannedproducts company, in Septem­
ber also pleaded guilty and
was sentenced to pay $100
million. The department said
■four executives, including Mr.,
-Lischewski, were charged in
.the investigation, and three of
those individuals pleaded
guilty and testified in Mr. Lischewski’s trial.
Bumble Bee didn’t respond
to requests to comment.
.StarKist in September 2019
said the sentencing resolved
all its outstanding criminal an­
titrust issues. It declined to
comment Wednesday.
’ In November 2019, Bumble
Bee filed for bankruptcy pro­
tection with an agreement to
sell its assets to Taiwan’s FCF
Fishery Co. for roughly $925
million.

being executed". VIOLATION

OF MY EIGHTH AMENDMENT RIGHT(S)
EXCESSIVE SANCTION(S)

Source: Wall Street Journal
On or about June 22, 2020

